                                                     NAnONAL SCIENCE FOUNDA nON 

                                                      OFFICE OF INSPECTOR GENERAL 

                                                        OFFICE OF INVESnGAnONS 


                                               CLOSEOUT MEMORANDUM 


Case Number: 111010001                                                                         Page 1 of 1



                OIG received a complaint that a senior official at NSF! coerced employees and
         contractors to attend and participate in a religious ritual,and that contractor cleaning staff were
         compelled to perform work outside the scope of their contract. We conducted an investigation
         and the allegations were not substantiated.

                   This investigation is closed with no further action taken.




NSF OIG Fonn 2 (11/02)
